~~
I
2311 Douglas Street CO Cc K L E

Omaha, Nebraska 68102-1214 Legal Briefs
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850.

E-Mail Address:
contact@cocklelegalbriefs.com

No. 19-794

DANIEL MACIAS and MICHAEL FOSTER,
Petitioners,
v.
RAYMOND NICHOLS and DANIEL NICHOLS,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 8949 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of March, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

‘
General Notary
Stato of Nebraska i C Clie Qudrav- kh, Chie
My Commission Expires Nov 24, 2020 ;

Notary Public Affiant 39586.

 

 
